JUNE 30, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




  NASA’S CHALLENGES CERTIFYING AND ACQUIRING
   COMMERCIAL CREW TRANSPORTATION SERVICES




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-022 (ASSIGNMENT NO. A-10-010-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CCDev        Commercial Crew Development
COTS         Commercial Orbital Transportation Services
CRS          Commercial Resupply Services
EELV         Evolved Expendable Launch Vehicle
FAA          Federal Aviation Administration
FAR          Federal Acquisition Regulation
FY           Fiscal Year
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements



                                                          REPORT NO. IG-11-022
JUNE 30, 2011




                                                                                               OVERVIEW

             NASA’S CHALLENGES CERTIFYING AND ACQUIRING
              COMMERCIAL CREW TRANSPORTATION SERVICES

                                                                                                 The Issue

  After more than 30 years and 130 flights, NASA’s Space Shuttle fleet will retire this
  year, leaving the United States dependent on the Russian Soyuz vehicle for crew
  transportation to and from the International Space Station until the next generation of
  U.S. space vehicles is ready for flight. 1 To develop this next generation of vehicles,
  NASA is simultaneously embarking on two paths:

        1. Developing a Government-owned multi-purpose crew vehicle and Space Launch
           System for human exploration beyond low Earth orbit; 2 and

        2. Stimulating the development of a commercial space industry capable of providing
           NASA with safe, reliable, and cost-effective access to and from the International
           Space Station and low Earth orbit. 3

  While NASA has over 50 years of experience with contractor-built, Government-owned
  space vehicles, the Agency has never procured transportation for its astronauts aboard a
  commercially developed vehicle. Of primary concern in this new paradigm is how the
  Agency will work with its commercial partners to ensure that commercially developed
  vehicles meet NASA’s safety and human-rating requirements. These requirements seek
  to ensure that spaceflight systems accommodate human needs, control hazards, manage
  safety risks, and, to the maximum extent possible, provide the capability to recover the
  crew safely from hazardous situations. 4


  1
      With completion of STS-133 on March 9, 2011, Space Shuttle Discovery has flown its last mission and
      is the first vehicle in the Shuttle fleet to be retired. Space Shuttle Endeavour completed its last mission
      (STS-134) on June 1, 2011 and the remaining Space Shuttle, Atlantis, will complete its final mission
      later this year.
  2
      “Low Earth orbit” is commonly defined as between 100 and 1,240 miles above the Earth’s surface.
  3
      The NASA Authorization Act of 2010 (Public Law 111-267) stipulated that NASA’s new multi-purpose
      crew vehicle and Space Launch System are to expand human spaceflight beyond the Space Station and
      low Earth orbit no later than December 31, 2016. The vehicles will also serve as a backup in the event
      that commercial industry cannot provide Space Station crew transportation services at that time. The
      NASA Authorization Acts of 2005 (Public Law 109-155), 2008 (Public Law 110-422), and 2010
      collectively directed NASA to use commercially developed systems to the maximum extent practicable
      for crew and cargo transportation to the Space Station.
  4
      NASA Procedural Requirements 8705.2B, “Human-Rating Requirements for Space Systems
      (w/change 1 dated 12/7/2009),” May 6, 2008.



REPORT NO. IG-11-022
                                                                                                      OVERVIEW



     Given the importance of the shift in NASA’s approach to acquiring human access to
     space, the Office of Inspector General examined the Agency’s efforts to modify its
     existing safety and human-rating requirements to make them applicable to commercially
     developed vehicles. We also evaluated the overarching challenges associated with
     possible approaches NASA may use to certify and acquire commercial crew
     transportation services. Details of the audit scope and methodology are in Appendix A.

     Results

     NASA is making sustained progress toward acquiring commercial crew transportation
     services. For example, in 2009 the Agency initiated the Commercial Crew Development
     (CCDev) effort to focus on developing systems and concepts that will help establish an
     industry capable of transporting astronauts to low Earth orbit and the Space Station. The
     following year, NASA awarded $50 million in funded Space Act Agreements to
     encourage the development of system concepts and capabilities that could enable
     commercial crew transportation services. 5 In April 2011, the Agency announced a
     second round of CCDev awards (CCDev 2) totaling $269.3 million to accelerate the
     availability of U.S. commercial crew transportation capabilities. However, even with the
     additional funding planned, NASA faces multiple challenges and risks as it expands its
     Commercial Crew Transportation program. These include:

     Modifying NASA’s Existing Safety and Human-Rating Requirements for
     Commercially Developed Systems. On December 8, 2010, NASA issued a consolidated
     set of health and medical, engineering, and safety and mission assurance requirements
     that commercial partners will have to meet to obtain certification to transport astronauts
     to low Earth orbit titled, “Commercial Crew Transportation System Certification
     Requirements for NASA Low Earth Orbit Missions” (Certification Requirements).
     However, NASA has not finalized the processes Agency officials will use to verify that
     commercial partners have met these requirements and subsequently certify that a
     commercial partner’s vehicle can safely transport NASA personnel. In May 2011, the
     Agency released for industry review and comment six draft documents (the 1100-series)
     that supplement the Certification Requirements relating to missions to the Space Station.
     These documents provide additional information to commercial partners regarding roles
     and responsibilities, technical management processes supporting certification, crew
     transportation system and Space Station services requirements, and the application of
     technical and operations standards. 6


     5
         Pursuant to the National Aeronautics and Space Act of 1958 and NASA policy (NASA Policy Directive
         1050.1l, “Authority to Enter into Space Act Agreements,” December 23, 2008), NASA may enter into
         Space Act Agreements to meet mission and program objectives. The agreements, which represent a set
         of legally enforceable promises, are classified as reimbursable, non-reimbursable, or funded. NASA may
         only enter into funded Space Act Agreements with domestic agencies, persons, corporations, or
         educational institutions when the Agency’s objective cannot be accomplished through a contract, grant,
         or cooperative agreement.
     6
         NASA plans to issue the baseline 1100-series documents by the end of the year.



ii                                                                                        REPORT NO. IG-11-022
OVERVIEW



  Despite the absence of finalized requirements from NASA, the private sector is already
  designing and developing systems and vehicles to meet NASA’s crew transportation
  needs and interested companies have provided input on NASA’s commercial crew
  transportation requirements. Specifically, industry representatives have suggested that
  NASA (1) modify existing requirements to the greatest extent possible and ensure they
  are achievable so that industry fully understands what is expected; (2) coordinate with the
  Federal Aviation Administration (FAA) – which has regulatory oversight of U.S.
  companies providing commercial space transportation services – to ensure NASA
  requirements and FAA regulations are compatible; and (3) allow for flexibility so that
  changes in vehicle or system design are attainable within reasonable costs. 7

  Additionally, in response to the CCDev 2 announcement for proposals, NASA received
  multiple questions from industry representatives seeking clarification on the requirements
  published to date, the timing of release of additional requirements, and NASA’s
  expectations for fulfilling the requirements. One industry representative questioned a
  draft requirement that commercial partner vehicles be able to provide a 95 percent abort
  effectiveness capability – a requirement NASA itself has never met. 8 NASA officials
  said they hope to strike a balance that will enable innovation and flexibility yet prescribe
  the minimum number of requirements deemed essential to ensure the safety of NASA’s
  astronauts.

  Selecting an Acquisition Strategy for Commercial Crew Transportation Services.
  NASA is still developing its acquisition strategy and has not settled on the specific
  mechanisms it will use for procuring commercial crew transportation services. The
  Commercial Crew Program Planning Office (Commercial Crew Office) plans to present
  its proposed acquisition strategy to Congress by late summer 2011. Mindful of national
  policy to limit the use of high-risk contracting vehicles such as noncompetitive and cost-
  reimbursement contracts, among the options NASA may consider is an acquisition
  strategy that relies on funded Space Act Agreements, competitive procurements, in
  particular fixed-price contracts, or a combination of both. 9

  Each of these possible approaches poses financial and programmatic challenges to
  NASA’s efforts to procure crew transportation services. For example, the use of funded
  Space Act Agreements limits Government control compared to traditional procurement

  7
      In August 2010, the FAA sponsored a commercial human spaceflight workshop attended by a
      representative from NASA’s Commercial Crew Office and industry representatives. According to the
      FAA, the companies were selected for participation based on their demonstrated capabilities and interest
      in participating in the commercial human spaceflight transportation industry.
  8
      Requirement 3.3.1.6 in the draft version of “International Space Station Crew Transportation and
      Services Requirements Document” (CCT-REQ-1130) states, “The CTS [Commercial Transportation
      System] shall provide an overall abort effectiveness of 0.95 . . ..”
  9
      A procurement contract is defined by the Federal Acquisition Regulation (48 C.F.R. § 2.101), while the
      Federal Grants and Cooperative Agreements Act of 1977 (Chiles Act) (31 U.S.C. § 6303) establishes the
      general criteria that Federal agencies must follow when deciding which legal instrument to use when
      entering into a funding relationship. The principal purpose of a procurement contract is to obtain
      property or services for the direct benefit or use of the Government.



REPORT NO. IG-11-022                                                                                             iii
                                                                                         OVERVIEW



     contracts based on the Federal Acquisition Regulation. Moreover, according to Agency
     policy, NASA may only enter into funded Space Act Agreements when its objective
     cannot be accomplished through a contract, grant, or cooperative agreement. Further, if
     the expected deliverables meet NASA’s transportation needs, a procurement contract is
     required.

     Consistent with these principles, the primary purpose of CCDev is to stimulate the private
     sector and aid in the development of commercial human spaceflight capabilities that
     NASA could use to transport astronauts to low Earth orbit and the Space Station. As one
     potential customer of this private sector market, NASA expects the CCDev Space Act
     Agreements to result in commercial capabilities that consider the Agency’s Certification
     Requirements. However, the Agency is not dictating specific system concepts or
     elements or mandating compliance with its requirements. Rather, CCDev participants are
     free to determine the system requirements and concepts they believe will best serve their
     target markets. Since crew transportation for NASA is the most viable segment of the
     human spaceflight market in the short term, it is in the companies’ best interest to ensure
     compliance with NASA requirements if they hope to obtain NASA’s business.
     Nevertheless, the lack of mandatory compliance with NASA’s requirements presents
     some risk that differences between partner designs and Agency requirements could occur.

     Similarly, the potential use of fixed-price contracts for crew transportation services also
     presents challenges. Traditionally, cost-reimbursement rather than fixed-price contracts
     have been used on projects in which costs and risks are not clearly defined. While fixed-
     price contracts lock in the Government’s initial investment, proceeding in this manner
     would not eliminate cost risks. Some of NASA’s potential commercial crew partners are
     building spacecraft for the first time and design and development are under way without
     fully defined and finalized requirements. In this type of environment, there is a risk that
     during the period of contract performance NASA’s requirements may change so
     significantly that contractors can successfully argue that the Agency is changing the
     contract’s scope, in which case NASA could be required to pay the contractor to make
     necessary modifications.

     Finally, NASA must consider whether to continue purchasing additional seats on the
     Russian Soyuz vehicle as a contingency to possible delays in obtaining commercial crew
     transportation. Currently, NASA has purchased seats on the Soyuz vehicle to ensure
     continued U.S. access to the Space Station through June 2016. Because of the long lead-
     time required for procuring Soyuz seats and planning a mission to the Space Station,
     NASA would have to make the decision to purchase additional seats in 2013,
     approximately 3 years before commercial systems are expected to be ready.

     Establishing the Appropriate Insight/Oversight Model for Commercial Partner
     Vehicle Development. In selecting the timing and appropriateness of potential
     procurement mechanisms, NASA must balance its role as a supporter of commercial
     partners with its responsibility to ensure that U.S. commercially developed vehicles are
     safe for NASA astronauts, meet the Agency’s needs, and provide for a viable domestic
     alternative to the Soyuz vehicle. The Commercial Crew Office is developing the model


iv                                                                          REPORT NO. IG-11-022
OVERVIEW



  for NASA’s insight and oversight of commercial companies. 10 According to NASA
  policy, “insight” means acquiring knowledge and an understanding of contractors’
  actions by monitoring selected metrics and milestones. Methods of achieving insight
  include reviewing documents, attending meetings and tests, and conducting compliance
  evaluations. “Oversight” combines technical insight of contractor activities with
  approvals that provide the contractor with formally documented authority to proceed or
  formal acceptance of plans, tests, or other criteria.

  While commercial partners are designing their launch systems, NASA will function in an
  insight role, forming partnerships with companies to increase the Agency’s understanding
  of their system designs. During this phase of the process, NASA may consider an
  approach that assigns a core team to follow a specific CCDev partner throughout the life
  cycle of its launch system. Once the CCDev initiative has ended, NASA may award
  contracts or continue to use funded Space Act Agreements for commercial vehicle
  development, test, and evaluation. The Agency would be both stimulating a commercial
  crew industry and assisting the commercial partners to develop safe, reliable, and cost-
  effective vehicles that meet NASA’s Certification Requirements. While NASA will still
  need to maintain insight into the development of each vehicle, at this stage of the process
  the Agency may assume more of an oversight role in granting approval or direction to
  each partner on the path to certification. As of May 2011, NASA has not finalized the
  oversight model for this phase, including defining key decisions regarding what will be
  required of commercial partners to successfully pass each milestone. Selecting the
  appropriate level and mechanisms of insight and oversight is necessary to provide NASA
  with sufficient information to assess partners’ technical, schedule, and cost risks and
  certify that commercially developed vehicles are safe for NASA astronauts without
  unduly affecting the commercial partners’ ability to operate in a cost-effective manner.

  Because NASA is not dictating specific system concepts or elements or mandating
  compliance with its requirements when using funded Space Act Agreements, companies
  may develop vehicles that deviate from Agency requirements. To mitigate this risk,
  NASA is considering an approach that would identify significant differences between
  design and requirements that may prevent a partner from obtaining NASA’s certification
  in the later phases of the acquisition process. However, conducting such an analysis for
  CCDev partners may be perceived as an unfair competitive advantage for non-CCDev
  companies. In fact, in response to its October 2010 CCDev 2 announcement, NASA
  received at least one question on the possible relationship between CCDev awards and
  future contracts. An industry representative inquired whether NASA anticipates overlap
  between CCDev 2 and any future procurement, such as commercial crew demonstration
  or transportation services contracts. NASA responded that there is no relationship
  between the two phases of acquisition. Moreover, according to the Agency’s Space Act
  Agreements Guide, such a relationship or perceived relationship can lead to claims of a
  conflict of interest. If NASA fails to address such potential conflicts or develop


  10
       NASA Policy Directive 8610.23C, “Launch Vehicle Technical Oversight Policy,” August 18, 2006.



REPORT NO. IG-11-022                                                                                   v
                                                                                       OVERVIEW



     appropriate mitigation plans, the Agency could face a bid protest, which could cause
     delays and jeopardize the success of NASA’s commercial crew program.

     Relying on an Emerging Industry and Uncertain Market Conditions to Achieve
     Cost Savings. In the NASA Authorization Act of 2010, Congress stated that commercial
     companies offer the potential of providing lower cost crew transportation services to
     support the Space Station. In fact, NASA’s acquisition strategy for procuring crew
     transportation services is premised on competition and a healthy commercial human
     spaceflight industry, which would allow NASA to solicit bids from a number of partners
     and make informed, competitive procurement decisions that meet individual mission
     requirements and provide the best value for the taxpayer. However, the commercial
     human spaceflight industry is in its infancy, and the market beyond NASA’s own crew
     transportation needs is uncertain. Many of the risks associated with achieving anticipated
     cost savings are largely out of NASA’s control, particularly in the area of creating non-
     Government demand for commercial human spaceflight services. The NASA
     Authorization Act of 2010 directs the Agency to work with the FAA’s Office of
     Commercial Space Transportation and assess the potential non-Government market for
     commercially developed crew and cargo transportation systems and capabilities. In April
     2011, NASA and the FAA reported that over time the market for commercial crew and
     cargo services may emerge and provide significantly more customers, more flights, and
     potentially lower prices to the U.S. Government. The continuing challenge will be to
     determine at what point the market can sustain a number of commercial partners,
     allowing NASA to transition to the role of consumer and ultimately realize cost-effective
     commercial crew transportation.

     Managing the Relationship Among Commercial Partners, the FAA, and NASA. The
     FAA is responsible for regulatory oversight of companies seeking to provide commercial
     human space transportation. To date, the FAA has issued regulations pertaining to
     launch and reentry activities that could affect the public safety. However, in December
     2012 the FAA is authorized to begin proposing regulations concerning the safety of
     passengers and crew involved in commercial spaceflight. As previously discussed,
     NASA plans to impose its own set of requirements, standards, and processes that
     commercial partners must meet to obtain a certification before transporting Agency
     personnel. Accordingly, NASA must coordinate with the FAA to avoid an environment
     of conflicting requirements and multiple sets of standards for commercial companies
     seeking to transport Government and non-Government passengers to low Earth orbit.
     Toward that end, the FAA and NASA have expressed a spirit of cooperation, and both
     groups have agreed that the goal is FAA licensing of commercially developed vehicles
     used to transport NASA personnel. Additionally, the agencies are co-locating personnel
     at NASA Headquarters, FAA field offices, and Johnson and Kennedy Space Centers to
     optimize Government oversight of commercial partners through compatible
     requirements, standards, and processes.




vi                                                                         REPORT NO. IG-11-022
OVERVIEW



                                                                 Management Action

  Separately managing each challenge associated with certifying and acquiring commercial
  crew transportation services is difficult enough, but because the challenges are inherently
  related this creates additional complications. For example, the degree and nature of
  requirements levied on commercial partners will have an impact on both NASA’s chosen
  acquisition strategy and the insight/oversight model the Agency will use to verify that the
  requirements are met. Also, to mitigate risks associated with relying on a single
  commercial partner and to help achieve anticipated costs savings, NASA’s acquisition
  strategy should encourage competition between multiple commercial partners. However,
  the viability of the commercial human spaceflight market is uncertain beyond NASA’s
  mission requirements, and the costs the industry must bear – such as those associated
  with operating in an environment of multiple standards and requirements established by
  NASA and the FAA – may deter companies from entering such an uncertain market.

  While we are not making specific recommendations for corrective action, we believe
  NASA must pay particular attention to the challenges highlighted in this report.
  Specifically, NASA should:

      •   clearly articulate to its commercial partners as soon as possible all requirements
          for commercially developed systems and the processes NASA will use for
          certifying such systems;

      •   maintain robust communication with the emerging commercial spaceflight
          industry to ensure that Agency contracting mechanisms include the appropriate
          balance between insight and oversight that will provide NASA with sufficient
          information to assess and certify commercial partners’ systems while providing
          companies the flexibility to innovate;

      •   clearly articulate how it will mitigate potential conflicts of interest that may arise
          as a result of any analysis that could provide an unfair competitive advantage to a
          NASA partner; and

      •   expand coordination with the FAA to avoid the potentially serious business
          impacts that would result if commercial companies were required to operate in an
          environment that included inconsistent standards for NASA certification and
          FAA licensing of the same vehicle.

  In response to a draft of this report, the Associate Administrator for Exploration Systems
  Mission Directorate agreed that NASA should pay particular attention to the challenges
  highlighted in the report. The Associate Administrator also noted that NASA’s
  acquisition strategy for the Commercial Crew Program is still under consideration and
  subject to further change as the procurement process matures (see Appendix C for the
  Agency’s response).



REPORT NO. IG-11-022                                                                               vii
JUNE 30, 2011




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 6

  RESULTS
      Challenges Associated with Certifying and Acquiring
        Commercial Crew Transportation Services _______________ 7
         Modifying NASA’s Existing Safety and Human-Rating
           Requirements for Commercially Developed Systems ____ 7
         Selecting an Acquisition Strategy for Commercial Crew
            Transportation Services __________________________ 11
         Establishing the Appropriate Insight/Oversight Model for
            Commercial Partner Vehicle Development ____________ 15
         Relying on an Emerging Industry and Uncertain Market
            Conditions to Achieve Cost Savings _________________ 18
         Managing the Relationship Among Commercial Partners,
           the FAA, and NASA _____________________________ 20
      Conclusion ________________________________________ 22
      Management Action _________________________________ 23

  APPENDIX A
      Scope and Methodology _______________________________ 25
      Review of Internal Controls ____________________________ 28
      Prior Coverage ______________________________________ 28

  APPENDIX B
      Technical Authority Standards and Requirements ___________ 29

  APPENDIX C
      Management Comments ______________________________ 35




REPORT NO. IG-11-022
                                                            CONTENTS




  APPENDIX D
      Report Distribution ___________________________________ 37




REPORT NO. IG-11-022
JUNE 30, 2011




                                                                           INTRODUCTION


Background

  The concept of human rating a spacecraft – that is, determining that a vehicle can safely
  carry humans into space – has evolved based on the knowledge and technology available
  at the time and the experience accrued since inception of the nation’s human spaceflight
  program more than 50 years ago. As NASA looks to commercial companies to develop
  vehicles to transport its astronauts, human rating must be an integral part of all activities
  throughout the life-cycle of a system, including design, development, test and evaluation;
  program management and control; mission operations; sustaining engineering; and
  vehicle disposal.

  What Is Human Rating? Human rating is the process of assuring that a spacecraft or
  launch vehicle is capable of safely transporting human beings. Human-rating concepts
  developed over the past 60 years include:

        •   avoiding complex components by using simpler designs;

        •   using well-established and proven aerospace design standards;

        •   incorporating sufficient redundancy in all critical systems; and

        •   avoiding untried or unproven technology.

  According to NASA, a human-rated system must accommodate human needs, effectively
  utilize human capabilities, control hazards, manage safety risks, and, to the maximum
  extent possible, provide the capability to safely recover the crew from hazardous
  situations. 11 Compliance with these requirements leads to a certification attesting that the
  system is suitable for manned spaceflight.

  The Evolution of NASA’s Human Spaceflight Programs. Although NASA astronauts
  have ridden on vehicles deemed suitable for manned spaceflight for 50 years, all of
  NASA’s human spaceflight programs predate the Agency’s current human-rating
  requirements and certification process. NASA’s first three human spaceflight programs –
  the Mercury, Gemini, and Apollo Programs – included 27 manned flights between 1961




  11
       NASA Procedural Requirements (NPR) 8705.2B, “Human-Rating Requirements for Space Systems
       (with change 1 dated 12/7/2009).



REPORT NO. IG-11-022                                                                              1
                                                                                                    INTRODUCTION



    and 1972. 12 These programs were considered “man-rated” in accordance with the
    requirements in place at the time. 13

    Initiated in 1972, NASA’s Space Shuttle Program generally followed the basic design
    philosophies and human safety criteria of its predecessor programs. These concepts
    included adding redundancies, placing a heavy emphasis on ground testing, and requiring
    close management review and control of all engineering and technical activities affecting
    the reliability and safety of flight hardware. In 2004, President Bush announced the
    planned retirement of the Shuttle Program, which was increasingly viewed as unsafe and
    too costly.

    By 2006, NASA was conducting trade studies and selecting contractors for the Agency’s
    next human spaceflight program, Constellation. Like its predecessors, the Constellation
    Program was to be a Government-owned system built to NASA standards by contractors
    under cost-reimbursable contracts and with extensive Government oversight. However,
    in contrast to NASA’s previous human spaceflight programs, elements of the
    Constellation Program, including those intended to transport astronauts to low Earth
    orbit, were being designed as the first vehicles that would meet the human-rating
    requirements established in NPR 8705.2B. 14

    The chronology of NASA’s human spaceflight programs and human-rating requirements
    is illustrated in Figure 1.




    12
         Project Mercury included 6 manned flights between 1961 and 1963; Project Gemini resulted in 10
         manned flights between 1965 and 1966; and the Apollo Program successfully completed 11 manned
         flights between 1968 and 1972.
    13
         See, for example, “System Safety Requirements for Manned Space Flight,” NASA Manned Flight Safety
         Office, January 1969.
    14
         Notably, the Russian Soyuz vehicle has not obtained a NASA human-rating certification even though it
         carries NASA astronauts. Due to its successful operational history and demonstrated level of reliability
         and safety, NASA deemed the Soyuz safe for U.S. crews.



2                                                                                          REPORT NO. IG-11-022
INTRODUCTION



  Figure 1. Selected Chronology of NASA’s Human Spaceflight Programs and Human-
  Rating Requirements




  Recent Policy Directives. In an October 2009 report, a committee established by the
  President to review the U.S. human spaceflight program concluded that “[t]he U.S.
  human spaceflight program appears to be on an unsustainable trajectory. . . . The United
  States needs a means of launching astronauts to low-Earth orbit, but it does not
  necessarily have to be provided by the government. . . . As we move from the complex,
  reusable Shuttle back to a simpler, smaller capsule, it is appropriate to consider turning
  this transport service over to the commercial sector.” 15 In his fiscal year (FY) 2010
  budget released the following February, President Obama proposed cancelling the
  Constellation Program in favor of relying on the nation’s commercial companies to
  provide crew transportation services to the International Space Station and focusing
  NASA’s attention on exploration beyond low Earth orbit. However, that proposal ran
  into stiff opposition in Congress. A compromise embodied in the NASA Authorization
  Act of 2010 requires that NASA use, to the extent practicable, commercially developed
  vehicles for transporting cargo and crew to the Space Station. At the same time, the Act
  15
       Known as the “Review of U.S. Human Spaceflight Plans Committee” or Augustine Committee, the
       Committee was charged with conducting an independent review of the nation’s human spaceflight
       program and providing alternatives that would ensure that the nation is pursuing the best trajectory for
       the future of human spaceflight – one that is safe, innovative, affordable, and sustainable.



REPORT NO. IG-11-022                                                                                              3
                                                                                                    INTRODUCTION



    directs NASA to develop a Space Launch System and multi-purpose crew vehicle using
    the Agency’s traditional approach of Government-owned systems built to Agency
    standards by contractors. 16

    NASA’s Investments in the Commercial Space Transportation Industry. NASA has
    funded aspects of the commercial space transportation industry since 2006, and over the
    past 5 years has initiated three activities to manage its investments: Commercial Orbital
    Transportation Services (COTS), Commercial Resupply Services (CRS), and
    Commercial Crew Development (CCDev).

    In 2006, the Commercial Crew and Cargo Program Office announced the $500 million
    COTS Project with the purpose of helping industry develop space transportation
    capabilities for cargo. NASA structured the Project as a partnership with the commercial
    space industry, sharing the risks, costs, and rewards of developing new space
    transportation capabilities. NASA expected commercial partners participating in the
    project to develop their own technology solutions for an on-orbit cargo delivery
    capability that could potentially meet NASA’s cargo needs and to raise additional
    funding to demonstrate their solutions. Once the partners have demonstrated the
    capability, NASA and other customers would be able to purchase space transportation
    services directly from them. NASA entered into Space Act Agreements under the COTS
    Project with Space Exploration Technologies Corporation (SpaceX) in August 2006, and
    with Orbital Sciences Corporation (Orbital) in February 2008. 17 In 2008, NASA awarded
    the two companies $3.5 billion in CRS contracts for 20 flights to provide cargo
    transportation services to support the Space Station through 2016, a task previously
    handled primarily by the Space Shuttles.

    To stimulate the commercial human spaceflight industry, NASA initiated CCDev in 2009
    to focus efforts on developing systems and concepts that will help establish an industry
    capable of transporting astronauts to low Earth orbit and the International Space Station.
    In 2010, NASA awarded the first round of funded Space Act Agreements under CCDev
    using $50 million in Recovery Act funds. 18 These awards were intended to assist
    commercial entities in the development of system concepts, key technologies, and
    capabilities that could be used in commercial crew space transportation systems. Shortly

    16
         Public Law 111-267. Congress had previously expressed support for the U.S. space transportation
         industry in the NASA Authorization Acts of 2005 (Public Law 109-155) and 2008 (Public Law 110-
         422).
    17
         On October 18, 2007, NASA terminated the $207 million COTS Space Act Agreement with Rocketplane
         Kistler due to the company’s failure to meet agreed-upon milestones. NASA had already awarded
         Kistler about $32 million in milestone payments. NASA reopened bidding later that year for the
         remaining $175 million, a competition Orbital won.
    18
         As stated in NASA Policy Directive (NPD) 1050.1l, “Authority to Enter into Space Act Agreements,”
         December 23, 2008, and pursuant to the National Aeronautics and Space Act of 1958, NASA may enter
         into Space Act Agreements with people and organizations to meet mission and program objectives. The
         agreements, which represent a set of legally enforceable promises, are classified as either reimbursable,
         non-reimbursable, or funded. NASA may only enter into funded Space Act Agreements with domestic
         agencies, persons, corporations, or educational institutions when the Agency’s objective cannot be
         accomplished through a contract, grant, or cooperative agreement.



4                                                                                          REPORT NO. IG-11-022
INTRODUCTION



  after the 2010 Authorization Act became law, the Agency announced it was seeking
  proposals for a second round of funded Space Act Agreements (CCDev 2) to further
  mature commercial crew transportation system concepts and capabilities. On April 18,
  2011, NASA awarded $269.3 million in CCDev 2 awards to four companies (see
  Table 1).

  Finally, beginning in FY 2012 NASA plans to incorporate into follow-on awards the
  accomplishments and lessons learned from CCDev. Once commercial crew
  transportation capabilities have matured, NASA may award fixed-price contracts to
  commercial companies to purchase transportation services to meet its Space Station crew
  rotation and emergency return needs. Table 1 summarizes NASA’s COTS, CRS, and
  CCDev agreements.




REPORT NO. IG-11-022                                                                        5
                                                                                                 INTRODUCTION




                           Table 1. NASA’s COTS, CRS, and CCDev Agreements
                                    Space Act Agreements or Contracts

                   Award      Award Value
        Activity    Year       (millions)             Company                    Vehicles/Technologies
    COTS            2006          $ 278.0        SpaceX                    Dragon
                                                                       a
    COTS            2006          $ 207.0        Rocketplane Kistler       K-1
    COTS            2007          $ 175.0        Orbital                   Cygnus
           b
    CRS             2008          $1,600.0       SpaceX                    Dragon (12 flights)
    CRSb            2008          $1,900.0       Orbital                   Cygnus (8 flights)
    CCDev           2010          $ 20.0         Sierra Nevada             Continued work on lifting body
                                                                           spacecraft design, Dream Chaser
    CCDev           2010          $    18.0      Boeing                    System concepts and technologies for
                                                                           CST-100
    CCDev           2010          $     6.7      United Launch             Atlas V and Delta IV early emergency
                                                 Alliance                  detection system
    CCDev           2010          $     3.7      Blue Origin               Launch escape system and composite
                                                                           pressure vessel cabin
    CCDev           2010          $     1.4      Paragon Space             Life support subsystem
    CCDev2          2011          $    92.3      Boeing                    System development and risk reduction
                                                                           demonstrations
    CCDev2          2011          $    80.0      Sierra Nevada             Further mature the Dream Chaser Crew
                                                                           Transportation System concept
    CCDev2          2011          $    75.0      SpaceX                    Hardware demonstrations of the launch
                                                                           abort engine firings and cockpit
                                                                           prototype evaluations
    CCDev2          2011          $    22.0      Blue Origin               Facilitate development of the vehicle
                                                                           design and escape system
    a
     Terminated on October 18, 2007, due to the company’s failure to meet agreed-upon milestones.
    b
     CRS awards are fixed-price indefinite delivery, indefinite quantity contracts with a period of performance
     from January 1, 2009, through December 31, 2016.
    Source: FAA “2011 U.S. Commercial Space Transportation Developments and Concepts: Vehicles,
    Technologies, and Spaceports;” January 2011 and NASA’s Selection Statement for Commercial Crew
    Development Round 2, April 18, 2011.

    Objectives

    Our objective in this project was to review NASA’s efforts to modify its safety and
    human-rating requirements for application to commercially developed space vehicles.
    We also examined the overarching challenges associated with some possible approaches
    NASA may take to certify and acquire commercial crew transportation services.




6                                                                                       REPORT NO. IG-11-022
RESULTS




                   CHALLENGES ASSOCIATED WITH CERTIFYING AND
                                 ACQUIRING COMMERCIAL CREW
                                    TRANSPORTATION SERVICES

          Over the past 2 years, NASA has made sustained progress toward its goal of
          obtaining commercial crew transportation services to low Earth orbit. For example,
          in 2009 the Agency initiated Commercial Crew Development (CCDev) investments
          and in 2010 awarded $50 million in funded Space Act Agreements to five companies
          to develop and demonstrate technologies and systems that could enable commercial
          human spaceflight capabilities. In April 2011, the Agency announced a second
          round of CCDev awards totaling $269.3 million. However, NASA’s effort to help
          develop a commercial space industry that could potentially meet the Agency’s
          transportation needs to low Earth orbit faces significant challenges, including:

             •   modifying NASA’s existing safety and human-rating requirements for
                 commercially developed systems;
             •   selecting the acquisition strategy for commercial crew transportation
                 services;
             •   establishing the appropriate insight/oversight model for commercial
                 partner vehicle development;
             •   relying on an emerging industry and uncertain market conditions to
                 achieve cost savings; and
             •   managing the relationship between commercial partners, the Federal
                 Aviation Administration (FAA), and NASA.

          The following sections examine each of these challenges in turn.


Modifying NASA’s Existing Safety and Human-Rating
 Requirements for Commercially Developed Systems

  NASA has never procured transportation for its astronauts aboard a commercially
  developed vehicle. To manage the risk inherent in this process, NASA’s Commercial
  Crew Program Planning Office (Commercial Crew Office) is modifying a series of
  existing health and medical, engineering, and safety and mission assurance requirements
  for the commercial space industry. The Office is also developing but has not finalized
  the processes NASA will use to verify that these requirements have been met and to
  certify that a commercial partner’s vehicle is capable of safely transporting Agency
  personnel.




REPORT NO. IG-11-022                                                                        7
                                                                                                        RESULTS



    Every requirement NASA imposes has a cost associated with it in time, money, or
    decreased innovation. Conversely, incurring these costs is often necessary to
    appropriately manage risk. Many of the requirements NASA will impose on its
    commercial partners are the same as those that the Agency applies to its own spaceflight
    programs. However, NASA still needs to determine if, when, and how it will oversee
    commercial partners’ development efforts in order to ensure they meet Agency
    requirements.

    NASA’s goal is to maximize safety and reliability without burdening commercial
    partners with unnecessary demands that lead to higher development and operations costs.
    The challenge is achieving the appropriate balance of requirements and associated costs
    to meet the needs of all stakeholders. With sufficient industry feedback and input from
    NASA’s Technical Authorities and managers of the Space Station, Space Shuttle, and
    Commercial Crew Programs, the Agency hopes to strike a balance that will prescribe the
    minimum number of requirements essential to ensuring the safety of NASA’s astronauts
    while enabling innovation and flexibility on the part of the commercial providers. 19

    Commercial Crew Transportation System Certification Requirements. NASA is in
    the process of modifying its existing safety and human-rating requirements for
    commercially developed vehicles. In May 2010, the Agency released a draft version of
    the Commercial Human-Rating Plan. After incorporating industry comments, NASA
    renamed the document and released it in December 2010 as the “Commercial Crew
    Transportation System Certification Requirements for NASA Low Earth Orbit Missions”
    (Certification Requirements). This document contains a consolidated set of technical
    requirements, standards, and processes that commercial partners must meet to obtain
    NASA certification of their crew transportation systems. 20

    The Certification Requirements describe NASA’s certification philosophy; the content
    and timing of the certification packages commercial companies will be required to deliver
    to NASA; and NASA’s expectations for system safety, human control of the vehicle, and
    crew survival. In addition, the Requirements reference a set of 93 other documents, each
    containing additional requirements the companies must consider in order to obtain
    certification. NASA has categorized the underlying 93 documents into three types:
    Type 1 – mandatory, must be implemented as written; Type 2 – alternatives allowed with
    NASA approval; and Type 3 – suggested best practices. Each of the 93 documents




    19
         NASA’s Technical Authorities consist of Health and Medical, Engineering, and Safety and Mission
         Assurance personnel who provide independent oversight of programs and are responsible for the
         requirements associated with their discipline and all waivers to those requirements.
    20
         NASA does not use the term “human rating” when referring to the Agency’s certification of commercial
         systems, but instead has reserved the term for use with the Agency’s own manned vehicles and systems.
         Instead, NASA will “certify” vehicles and systems produced by commercial partners when they are used
         to transport NASA astronauts.



8                                                                                       REPORT NO. IG-11-022
RESULTS



  reference other documents that set forth additional requirements. According to one
  estimate, NASA’s Certification documents contain more than 4,000 requirements. 21

  Of the 93 underlying documents, the Agency’s Health and Medical Technical Authority
  requires commercial partners to implement five Type 1 documents focusing on crew
  health and safety, human factors, and environmental standards; the Engineering and
  Safety and Mission Assurance Technical Authorities identify 70 Type 2 documents
  outlining requirements pertaining to design standards for space hardware and techniques
  for which substitutes are allowed with NASA approval; and the remaining 18 documents
  are considered best practices. We summarize the 93 documents in Table 2 below.

        Table 2. Technical Authority Standards and Requirements Documents for
                        Commercial Crew Transportation Systems
                                                                       Number of
  Document Type, Number in the Set,                                     Related
   and Related Level of Enforcement     Technical Authority Discipline Documents
  Type 1 Documents (5) – Mandatory
                                       Health and Medical                5
                                       Engineering                       0
                                       Safety and Mission Assurance      0

  Type 2 Documents (70) – Alternatives Allowed with NASA Approval
                                        Health and Medical                                0
                                        Engineering                                      35
                                        Safety and Mission Assurance                     35

  Type 3 Documents (18) – Best Practices Suggested
                                         Health and Medical                               1
                                         Engineering                                      7
                                         Safety and Mission Assurance                    10
    Total                                                                                93
  For a list of the 93 Technical Authority standards and requirements documents, see Appendix B.
  Source: “Commercial Crew Transportation System Certification Requirements for NASA Low Earth
  Orbit Missions” (ESMD-CCTSCR-12.10) and correction provided by the Office of Safety and
  Mission Assurance.


  The 1100-Series Documents. The Commercial Crew Office also intends to publish
  documents referred to as the “1100-series,” which will tailor the Certification
  Requirements for crew transportation missions to the Space Station. In May 2011, the
  Commercial Crew Office publicly released in draft the following 1100-series documents
  for comment:



  21
       Remarks presented by Thomas Martin, Chief Systems Engineer, Special Aerospace Services, LLC, at the
       Commercial Human Spaceflight Technical Forum, January 12–14, 2011.



REPORT NO. IG-11-022                                                                                         9
                                                                                                          RESULTS



            •   Crew Transportation Plan establishes the roles and interfaces between NASA and
                the commercial space transportation industry and describes the necessary
                elements for achieving certification to transport NASA crew to the Space Station.
            •   Crew Transportation System Design Reference Missions establishes the goals for
                the design of a system to transport humans to and from low Earth orbit.
            •   Crew Transportation Technical Management Process provides commercial
                partners a summary of NASA’s expectations of the processes and products the
                Agency considers crucial to a successful development effort.
            •   ISS [International Space Station] Crew Transportation and Services Requirements
                Document provides the commercial space transportation industry with NASA’s
                requirements for development of commercial services to deliver crew and a
                limited amount of cargo to the Space Station.
            •   Crew Transportation Technical Standards and Design Evaluation Criteria informs
                commercial partners of the specifications, standards, and processes that NASA
                considers critical to a successful design and provides guidance on the technical
                criteria NASA will use to assess the acceptability of proposed commercial
                designs.
            •   Crew Transportation Operations Standards establishes the minimum criteria and
                practices for space flight operations process.
     NASA officials said they hope to issue the baseline 1100-series documents by December
     2011.

     Industry Comments and Concerns. The private sector has been participating in and
     commenting on NASA’s certification requirements as they are being developed. For
     example, at an August 2010 commercial human spaceflight workshop hosted by the FAA
     and attended by representatives from industry and NASA, industry representatives
     suggested that NASA:

            • modify existing requirements to the greatest extent possible and ensure they are
              achievable;

            • develop mature, stable requirements as soon as possible and in coordination with
              the FAA, which has regulatory oversight of U.S. companies providing
              commercial space transportation services; and

            • allow for flexibility in requirements so that changes in vehicle or system design
              are attainable within reasonable costs. 22
     22
          The following companies participated in the workshop: Bigelow Aerospace; The Boeing Company;
          Lockheed Martin Corporation; Orbital; Sierra Nevada Corporation; SpaceX; and United Space Alliance.
          According to the FAA, the companies were selected based on their demonstrated capabilities and interest
          in participating in the commercial human spaceflight transportation industry.


10                                                                                        REPORT NO. IG-11-022
RESULTS



   Additionally, NASA received numerous questions from industry representatives in
   response to its October 2010 CCDev 2 announcement, including questions about the
   requirements the Agency had published to date, the timing of the release of additional
   requirements, and NASA’s expectations for requirements fulfillment. One industry
   representative questioned a draft requirement that commercial partner vehicles provide a
   95 percent abort effectiveness capability, pointing out that this “seems to be a rather
   aggressive requirement given the fact that NASA’s own calculations for the
   [Constellation Program] Ares I (which was supposed to be one of the safest crew
   vehicles NASA had ever designed) showed that this vehicle had an abort effectiveness of
   about 80 percent to 85 percent.” 23 In response, NASA stated that it is not mandating
   compliance with requirements as part of CCDev 2 and, as discussed below, is simply
   informing industry as early as possible what may ultimately be required to obtain
   certification of a commercial system.


Selecting an Acquisition Strategy for Commercial Crew
  Transportation Services

  NASA’s Commercial Crew Office has not finalized the acquisition strategy it will use for
  procuring commercial crew transportation services, although NASA has stated that it
  plans to present its strategy to Congress by late summer 2011. Mindful of national policy
  to limit the use of high-risk contracting vehicles such as noncompetitive and cost-
  reimbursement contracts, among the options NASA may consider is an acquisition
  strategy that relies either on funded Space Act Agreements; competitive procurements
  guided by the Federal Acquisition Regulation (FAR), in particular fixed-price contracts;
  or some combination of both.

  Each of these possible approaches poses financial and programmatic challenges to
  NASA’s efforts to procure crew transportation services. In selecting procurement
  mechanisms, NASA must balance its role as a supporter of commercial partners with its
  responsibility to ensure that commercially developed vehicles are safe for NASA
  astronauts, meet the Agency’s needs, and provide a viable domestic alternative to the
  Soyuz vehicle.

  Challenges of Using Space Act Agreements. NASA may only enter into funded Space
  Act Agreements when it cannot accomplish its objective through a contract, grant, or
  cooperative agreement. Further, if the expected deliverables meet a NASA requirement,
  Federal policy states that a procurement contract is required. 24
  Consistent with these principles, the primary purpose of CCDev (which up to this point
  has been funded by Space Act Agreements) is to stimulate the private sector and aid in

  23
       Requirement 3.3.1.6 in the draft version of “International Space Station Crew Transportation and
       Services Requirements Document” (CCT-REQ-1130) states, “The CTS [Commercial Transportation
       System] shall provide an overall abort effectiveness of 0.95 [to be confirmed] . . ..”
  24
       The Federal Grant and Cooperative Agreement Act of 1977.



REPORT NO. IG-11-022                                                                                      11
                                                                                        RESULTS



     the development of commercial human spaceflight capabilities that NASA could
     ultimately use to transport astronauts to low Earth orbit and the International Space
     Station. As one potential customer of the private sector, NASA expects the CCDev
     Space Act Agreements to result in commercial capabilities that consider the Agency’s
     commercial crew transportation system certification requirements, but is not dictating
     specific system elements or mandating compliance with specific requirements. Rather,
     each participant operating under a CCDev Space Act Agreement is free to determine the
     system requirements and concepts that it believes best serve its target markets.

     Although NASA is the biggest and most viable customer for these companies in the near
     term, because compliance with NASA’s requirements is not mandatory it is possible that
     the companies’ designs will not track all of NASA’s requirements. To mitigate this risk,
     NASA may perform an analysis to identify shortfalls between the companies’ designs
     and the Agency’s requirements to improve the vehicle design or correct a known issue or
     defect. However, as discussed below, proceeding in this manner could create additional
     financial risks for the Agency.

     Challenges of Using FAR-based Procurements, Specifically Fixed-Price Contracts.
     Cost increases associated with Government’s use of cost-reimbursement contracts has
     focused attention on other procurement vehicles such as fixed-price contracts that might
     better contain costs. If NASA chooses to award fixed-price contracts, it will realize
     certain benefits, most notably locking in the Government’s initial investment to a fixed
     amount. However, fixed-price contracts also create significant risks that the Commercial
     Crew Office will need to manage, including costs associated with unanticipated technical
     difficulties and yet-to-be-defined requirements.

     The FAR lists several factors to consider when selecting and negotiating contract types.
     When the requirements are complex or unique, the Government usually assumes a greater
     portion of the risk by using contracting vehicles like cost-reimbursement contracts. This
     is especially true for complex research and development contracts where performance
     uncertainties or the likelihood of changes makes it difficult to accurately estimate
     performance costs in advance. Moreover, some of the companies that have shown
     interest in providing commercial crew services are building spacecraft for the first time
     and the requirements they will be expected to meet have not yet been fully defined. In
     this type of environment, there is a risk that during the period of contract performance
     NASA’s requirements may change so significantly that contractors may assert the
     Agency is going beyond the contract’s scope in which case NASA would be required to
     pay the contractor for necessary changes.

     In addition, although fixed-price contracts provide the maximum incentive for contractors
     to perform effectively while controlling costs, they also place on the contractor the
     maximum risk of loss if it is unable to do so. This situation can create incentives for a
     contractor to “cut corners” to protect its profit margin.

     Another challenge in a fixed-price environment is determining the true costs companies
     will face in meeting NASA requirements. For example, NASA has established a long-


12                                                                        REPORT NO. IG-11-022
RESULTS



  term safety requirement for all future crewed space transportation systems, mandating
  that each system must eventually become safer than when initially developed. 25 Thus,
  each of NASA’s commercial partners will be required to invest additional funds to
  develop and maintain a proactive continuous improvement program. In the fixed-price
  environment, a company’s motivation to increase profit margins by cutting costs and
  creating efficiencies may conflict with the requirement to continually improve the safety
  of their system. Moreover, companies will need to account for the added costs of
  maintaining a continuous improvement program when contracting with NASA for Space
  Station transportation missions.

  Soyuz Buy Decision. Another challenge facing NASA is determining whether and when
  to purchase additional seats on the Russian Soyuz vehicle as a contingency to possible
  delays in obtaining commercial crew transportation capabilities. Since 2005, NASA has
  negotiated with Roscosmos – the Russian Federal Space Agency – to purchase crew
  transportation services aboard the Soyuz vehicle. These services included the launch,
  return, and possible rescue of astronauts from the Space Station. To date, NASA has
  purchased 46 seats aboard Soyuz vehicles for launches planned through 2015. Since
  2005, the average cost per seat has increased almost 175 percent, from $21.8 million for
  launches occurring in 2006, to $60 million for launches planned for 2015. 26

  As shown in Figure 2, the largest increase occurred for launches planned for the latter
  portion of 2011, when retirement of the Space Shuttle and the lack of a U.S. domestic
  transportation capability increased NASA’s previous demand for Soyuz seats. 27
  According to the Space Station External Integration Office, meeting this increased
  demand required upgrades to and modernization of Russia’s manufacturing
  infrastructure, which resulted in a 57 percent increase in the cost per seat – from
  $27.7 million for launches in the first half of 2011 to $43.4 million for launches in the
  latter half of 2011. NASA determined that the 57 percent increase was reasonable and
  accurately reflected inflation and the effort required to sustain Russia’s increased vehicle
  production rate to meet the Agency’s increased demand for an extended period of time
  beyond 2011.

  NASA has since agreed to three more contract modifications with Roscosmos for
  continued crew transportation, rescue, and related services for flights to and from the
  Space Station through 2015, with the cost per seat rising each year by an average of
  $4.34 million. The most recent contract modification purchased seats for launches in
  2014 and 2015 with the final crew return mission occurring in June 2016. The cost per
  seat for the 2014 and 2015 launches is $55.6 million and $60 million, respectively.


  25
       The Agency will adopt safety goals and thresholds for crew transportation missions to the International
       Space Station. These goals and thresholds will be applied to acquisition programs involving commercial
       crew transportation capabilities and services as well as NASA Programs conducting such services.
  26
       The costs cited are price per seat only and exclude any additional costs for cargo delivery, cargo return,
       and trash disposal capabilities.
  27
       NASA purchased one Soyuz seat per year in 2007 and 2008 and six per year from 2009 to 2015.



REPORT NO. IG-11-022                                                                                                13
                                                                                                        RESULTS



     The increases in the yearly cost per seat for U.S. crew transportation services aboard the
     Soyuz vehicle are shown in Figure 2.

     Figure 2. Yearly Cost (per Seat) for U.S. Crew Transportation Services Aboard the Soyuz
     Vehicle for Launches through 2015

       $70 million

       $60 million
                                                                                                         $60.0
                                                                                                $55.6
       $50 million
                                                                                        $51.5
                                                                               $47.0
       $40 million
                                                                       $43.4

       $30 million

                                              $25.2    $26.4 $27.7
       $20 million
                     $21.8 $21.8     $21.8

       $10 million
                     2006     2007    2008    2009    2010    First Second 2012         2013    2014     2015
                                                             half of half of
                                                              2011 2011


     Source: NASA International Space Station External Integration Office, Johnson Space Center,
     May 2011.


     Procurement of these additional Soyuz seats is intended to bridge the gap between the
     end of the Space Shuttle Program and the availability of U.S. commercially developed
     vehicles, which is planned for late 2016. However, if the commercial partners incur
     schedule slippage, technical or financial delays, or significant difficulty in the early
     stages of obtaining NASA’s certification of their vehicles, NASA may have to purchase
     additional Soyuz seats to ensure continued U.S. access to the Space Station beyond June
     2016. Because of the long lead-time required for procuring Soyuz seats and planning a
     mission to the Space Station, NASA would have to make the decision to purchase
     additional Soyuz seats for flights in 2016 and beyond by spring 2013, at least 3 years
     before commercial partners are expected to be ready to provide transportation services.
     Alternatively, NASA may decide not to purchase additional Soyuz seats and risk having
     no crew transportation capabilities to the Space Station after June 2016 if its partners
     encounter unexpected delays.




14                                                                                     REPORT NO. IG-11-022
RESULTS



Establishing the Appropriate Insight/Oversight Model for
  Commercial Partner Vehicle Development

  The Commercial Crew Office is developing the model for NASA’s insight and oversight
  of commercial companies’ efforts to develop crew transportation systems. 28 As defined
  by NASA, “insight” means acquiring knowledge and understanding of contractors’
  actions by monitoring selected metrics or milestones. Methods of achieving insight
  include review of documentation, attendance at meetings, tests, and compliance
  evaluations. In contrast, “oversight” combines technical insight of contractor activities
  with approvals that provide the contractor with formally documented authority to proceed
  or formal acceptance of plans, tests, or success criteria.

  The primary difference between models of insight versus oversight is that insight
  provides NASA with knowledge without having the authority for decision-making and
  approval, whereas oversight provides for knowledge and authority to make approval
  decisions. Selecting the appropriate level and mechanisms of insight and oversight is
  necessary to provide NASA with information sufficient to assess commercial partners’
  technical, schedule, and cost risks and certify that commercially developed vehicles are
  safe for NASA astronauts without unduly affecting the commercial partners’ ability to
  operate in a cost-effective manner. As discussed above, because NASA is not dictating
  specific system concepts or elements or mandating compliance with its requirements in
  funded Space Act Agreements, companies may develop vehicles that deviate from
  Agency requirements. To mitigate this risk, NASA’s insight/oversight approach could
  include an analysis to identify significant differences between design and requirements
  that would potentially prevent a partner from obtaining NASA’s certification in the later
  phases of the acquisition process.

  Spectrum of Insight/Oversight Models. Throughout its history, NASA has utilized a
  wide spectrum of insight/oversight models. One method of measuring the Government’s
  level of insight versus oversight is a program’s ratio of civil service employees to
  contractor employees. As shown in Figure 3, insight/oversight models for NASA
  programs range from low (1 civil service employee to every 250 contractor employees
  for development of scientific and commercial spacecraft) to intense (1 civil service
  employee to every 4 contractor employees for the development and operation of human
  spaceflight programs).




  28
       NPD 8610.23C, “Launch Vehicle Technical Oversight Policy,” August 18, 2006.



REPORT NO. IG-11-022                                                                          15
                                                                                                        RESULTS



     Figure 3. Spectrum of Insight/Oversight Models
                                                                                         Intense Insight/
        Low/No Insight/Oversight                 Medium Insight/Oversight                   Oversight


           Scientific and Commercial                                      Launch Services           Human
            Spacecraft—Contracted                 COTS and CRS               Program              Spaceflight
                1 CSE/10-250 CE                      1 CSE/                1 CSE/17 CE            1 CSE/4-10
                                                    20-80 CE                                          CE




       Genesis         MRO         GPS III      Falcon/    Taurus II     Delta II   Atlas V       Space Shuttle
                                                Dragon
     Spacecraft shown are only examples of multiple spacecraft in the category.
     CE – contractor employee; CSE – civil service employee; GPS – Global Positioning Satellite
     MRO – Mars Reconnaissance Orbiter
     Source: Adapted from Hale, W., and F. Bauer, “Government Insight/Oversight for Commercial Crew
     Transportation,” Rev. N, March 10, 2010. At
     http://www.nasa.gov/pdf/469245main GovernmentInsightForCommercialCrewTransportation.pdf
     (accessed June 17, 2011).


     Government insight/oversight also includes the mechanisms by which civil service
     employees (1) assess commercial partners’ technical, schedule, and cost risks;
     (2) establish, apply, and modify technical requirements; and (3) evaluate the competency
     and adequacy of the technical work performed by commercial partners. Examples of
     NASA oversight are requiring Government approval of partners’ documents and
     drawings; mission-unique hardware design, analysis, manufacture, and testing; spacecraft
     handling procedures; and launch go/no-go decisions. NASA insight could include
     Government monitoring and review but not approval of commercial partners’ work
     practices and documentation; vehicle walk-down inspections; failure analysis; and
     anomaly resolutions. Whichever methodology it adopts, NASA must tread a delicate
     balance between insight/oversight activities that will provide sufficient evidence that
     partners have met the Certification Requirements to ensure that commercially developed
     vehicles are safe for NASA astronauts without unnecessarily driving up costs.

     Insight in the Design Phase. While commercial partners are designing their launch
     systems as part of CCDev, NASA is considering the appropriate level of insight to
     increase its understanding of the companies’ system design. The depth of this insight
     could be critical for accurately assessing technical, schedule, and cost risks, and for




16                                                                                    REPORT NO. IG-11-022
RESULTS



  establishing an analytical approach NASA may use to monitor and assess each partner’s
  designs.

  NASA is considering an approach that assigns a core team to follow a specific CCDev
  partner throughout the life-cycle of its launch system. To gain the best possible
  understanding of a partner’s system, one or more of the team members may acquire an
  office at the commercial partner’s production facility. NASA may augment the team
  when needed with subject matter experts to help resolve major issues and provide
  additional support for key milestone reviews such as design reviews and flight readiness
  reviews. NASA could also assign additional experts to support the more challenging,
  higher risk areas such as launch abort systems. This type of solution would require
  coordination between the Commercial Crew Office and NASA’s institutional pool of
  experts.

  Each insight team may be tasked with performing an independent analysis of the
  partner’s design in order to assess differences between that design and NASA’s
  Certification Requirements. These findings could enable NASA to assess the ability of
  each design to meet the Agency’s Certification Requirements prior to the actual awarding
  of contracts for transportation services.

  Oversight in the Development, Test, and Evaluation Phase. Once the design phase
  has ended, NASA may award contracts, Space Act Agreements, or both for commercial
  vehicle development, test, and evaluation. At that point, the Agency will be both
  stimulating a commercial crew industry and assisting with the development of safe,
  reliable, and cost-effective commercial vehicles that meet NASA’s Certification
  Requirements. While NASA would still need to maintain insight into the development of
  each vehicle, at that stage in the process the Agency may assume more of an oversight
  role in granting approval or direction to companies as they move toward certification. As
  of May 2011, NASA had not finalized the oversight model for this phase, including
  defining key milestones regarding what will be required of commercial companies.

  Establishing an insight/oversight model, however, is not without risks, particularly with
  respect to ensuring fair and open competition if, for example, the Agency were to
  transition from Space Act Agreements in the design phase to fixed-price contracts in the
  development, test, and evaluation phase. NASA would need to ensure it structured its
  insight during the design phase of CCDev so as not to give participants an unfair
  competitive advantage over non-participants. For example, although NASA’s solicitation
  for vehicle development and crew transportation services would be open to non-
  participants, if NASA identifies differences in partners’ designs and NASA requirements,
  only CCDev partners would have received that analysis, which could increase the
  likelihood that their vehicles will meet contract requirements.

  NASA has received at least one question in response to the CCDev 2 announcement for
  proposals regarding the relationship between CCDev awards and future contracts. An
  industry representative inquired whether NASA anticipates overlap between CCDev 2
  and any future procurement of commercial crew demonstration or transportation services.


REPORT NO. IG-11-022                                                                          17
                                                                                                RESULTS



     NASA responded that there is no relationship between the two phases of acquisition.
     However, if NASA provides its CCDev partners information relevant to the differences
     between their designs and NASA requirements, non-CCDev companies may perceive
     that as an unfair competitive advantage. According to the Agency’s Space Act
     Agreements Guide, such a relationship or perceived relationship could raise conflict of
     interest concerns. If NASA fails to address such potential conflicts or develop
     appropriate mitigation plans, the Agency could be faced with a bid protest, which could
     cause delays in the procurement.


Relying on an Emerging Industry and Uncertain Market
  Conditions to Achieve Cost Savings

     NASA’s acquisition strategy to procure safe, reliable, and cost-effective crew
     transportation services is premised on competition in the near term and a healthy
     commercial human spaceflight industry in the longer term. Competition will both
     incentivize performance and mitigate the risk that reliance on a single provider may pose.
     Engaging with multiple companies lessens the impact should any one company fail to
     meet NASA’s Certification Requirements or secure the funds necessary to continue in the
     industry. A healthy commercial space transportation industry will allow NASA to solicit
     bids from a number of companies and make competitive procurement decisions that meet
     individual mission requirements while providing the best value for the taxpayer.

     However, the commercial space industry is in its infancy and, according to a 2010 FAA
     report, there is currently insufficient demand to support a viable commercial human
     spaceflight market. 29 The report highlighted a number of steps that NASA and the FAA
     need to take to develop a commercial crew transportation market, including:

           •    Act as the anchor tenant customer for the foreseeable future, including
                guaranteeing a market greater than 5 years of Space Station support;

           •    Provide mature, stable requirements, including human-rating certification
                requirements, as soon as possible; and

           •    Ensure that NASA and the FAA agree on a coherent set of requirements and
                regulations that enable commercial crew transportation systems to serve both
                Government and non-Government customers.

     The Importance of Government Investments. Creating an environment where
     competition exists in the development of commercial crew transportation services will
     require a large investment and support from the Federal Government on both the supply
     and demand sides of the business model. Although there appears to be a great deal of
     speculation and excitement surrounding commercial spaceflight, in the near term the
     market for non-Government commercial human spaceflight services is limited and the
     29
          FAA, “Report of the Commercial Human Spaceflight Workshop,” August 4-6, 2010.



18                                                                                  REPORT NO. IG-11-022
RESULTS



  future market is largely unknown. Similarly, NASA’s need for crew transportation to the
  Space Station, as currently defined, is relatively limited and could potentially result in
  only two flights per year. Therefore, because of the large initial investment required by
  industry to enter into the commercial crew transportation business, NASA will most
  likely be a significant financial partner and supporter of those companies for some time to
  come.

  Lessons Learned from the Evolved Expendable Launch Vehicle Program.
  Historically, past predictions of the demand for commercial launch vehicles have been
  overly optimistic. Moreover, competition in a demand-constrained environment can have
  unintended consequences. For example, Lockheed Martin and the Boeing Company
  were rival launch vehicle service providers in the Department of Defense’s Evolved
  Expendable Launch Vehicle (EELV) Program. 30 When expected demand for EELV
  launch vehicles did not materialize, estimated prices for launch services increased
  77 percent in 1 year. In an effort to provide more cost-effective and reliable launch
  vehicles in the face of limited demand for their services, the companies combined their
  EELV operations in December 2006 to form United Launch Alliance, LLC. The
  formation of United Launch Alliance eliminated competition and forced the Government
  to rely on a single provider of launch services to meet its intermediate- and heavy-class
  launch vehicle requirements. Consequently, near-term limited demand can stifle
  competition – a cornerstone of NASA’s commercial crew services goals.

  Impacts of Near-Term Limited Demand. Because of the near-term limited demand for
  commercial crew transportation services, it is likely that NASA’s commercial partners
  will attempt to augment their business with commercial and Government satellite
  launches. For example, SpaceX is developing rockets that can transport satellites to orbit,
  including a rocket to compete with United Launch Alliance in the EELV market.
  However, FAA predictions for satellite launch vehicle demand through 2019 remain flat
  or slightly decline, although the FAA points out that opportunities for growth in the
  overall launch vehicle market could occur if a viable, commercial human spaceflight
  market emerges. 31 In spite of the current limited market demand, new companies have
  entered or expressed interest in the commercial crew industry.

  In the NASA Authorization Act of 2010, Congress stated that commercial space
  transportation services have the potential of broadening availability and access to space
  travel while lowering costs. However, many of the risks associated with achieving the
  anticipated cost savings are largely out of NASA’s control, particularly in the area of
  creating demand for non-Governmental commercial human spaceflight services. The Act
  directed the Agency to work with the FAA’s Office of Commercial Space Transportation
  and assess the potential non-Government market for commercially developed crew and
  cargo transportation systems and capabilities. In April 2011, NASA and the FAA
  30
       The Department of Defense initiated the Evolved Expendable Launch Vehicle Program in 1995. The
       Program consists of the Atlas V (formerly provided by Lockheed) and Delta IV (formerly provided by
       Boeing) families of launch vehicles.
  31
       FAA “2010 Commercial Space Transportation Forecasts,” May 2010.



REPORT NO. IG-11-022                                                                                        19
                                                                                                   RESULTS



     reported that over time the non-Government market for commercial crew and cargo
     services may emerge and provide significantly more customers, more flights, and
     potentially lower prices to the U.S. Government. 32 For example, the clearly identifiable
     market for regular Space Station cargo delivery and crew rotation provides a foundation
     for private sector development efforts to succeed. However, without a successful
     Commercial Crew Program, the prospects for a stable commercial non-Government
     market are lessened considerably. The continuing challenge will be determining at what
     point the market can sustain a number of commercial companies, allowing NASA to
     transition from the role of partner in the development of commercial services to one of a
     consumer benefitting from cost-effective commercial crew transportation services.


Managing the Relationship Among Commercial Partners, the FAA,
 and NASA

     Although U.S. human space travel has historically been managed by NASA, the FAA is
     responsible for providing regulatory oversight of companies seeking to provide
     commercial human space transportation. To date, the FAA has issued regulations
     pertaining to launch and reentry activities that could affect public safety. However, in
     December 2012 the FAA is authorized to begin proposing regulations concerning the
     safety of passengers and crew involved in commercial spaceflight. As previously
     discussed, NASA plans to impose its own set of requirements, standards, and processes
     that commercial partners must meet to obtain a certification before transporting Agency
     personnel. Accordingly, NASA must coordinate with the FAA to avoid creating multiple
     sets of standards and requirements for commercial companies seeking NASA
     certification and FAA licensing on the same vehicle.

     History of FAA Regulating Commercial Spaceflight. In accordance with the
     Commercial Space Launch Act of 1984, the FAA is responsible for overseeing, licensing,
     and regulating launch and reentry activities undertaken by U.S. commercial space
     companies. The FAA also has authority over launch and reentry sites operated by U.S.
     business entities. The FAA’s primary role is to ensure the safety of the public. Its
     regulatory oversight includes developing and issuing regulations; granting licenses,
     permits, and safety approvals; and conducting safety inspections during every licensed
     launch.

     The Commercial Space Launch Amendments Act of 2004 expanded the FAA’s role by
     establishing a regulatory framework for commercial human spaceflight. This law
     established an “informed consent” protocol for carrying spaceflight passengers.
     Informed consent is the process of notifying spaceflight passengers in writing of the risks
     associated with spaceflight, and passengers will be required to agree in writing to accept
     those risks. Before granting a launch license, the FAA must also approve the commercial
     operator’s vehicle hardware and software. Additionally, the operator must assess critical
     32
          “Commercial Market Assessment for Crew and Cargo Systems Pursuant to Section 403 of the NASA
          Authorization Act of 2010 (P.L. 111-267),” April 27, 2011.



20                                                                                  REPORT NO. IG-11-022
RESULTS



  hazards and risks posed by its launch operations and propose to the FAA how they will
  mitigate them.

  Except for informed consent, the 2004 Commercial Space Act specifically prohibited the
  FAA from imposing regulations related to crew and passenger safety on commercial
  spaceflights for a period of 8 years after enactment. 33 Therefore, beginning in December
  2012 (unless specifically prohibited by new legislation), the FAA will be able to begin
  proposing regulations concerning the safety of passengers and crew involved in
  commercial spaceflight. The FAA has indicated that it anticipates issuing regulations
  establishing requirements for launch vehicle maintenance; crew rest and safety;
  spaceflight participant safety and training; and vehicle re-entry. FAA officials foresee
  establishing a minimum set of requirements to help ensure safety of the crew and the
  public.

  Before taking effect, any proposed FAA regulations must undergo an official Notice of
  Proposed Rulemaking process, which allows the public, industry, and other Government
  agencies to comment on the proposed regulation. This rulemaking process can take many
  months to complete, which in turn could delay the enactment of any new FAA
  regulations until sometime in 2013. In anticipation of this time lag, the FAA plans to
  begin an introductory dialogue with the commercial space industry in the spring of 2012
  to conceptualize the regulatory environment as soon as possible so that industry may
  consider this information when designing vehicles.

  Need for Timely NASA and FAA Coordination. The FAA and NASA have already
  demonstrated that they can collectively provide Government reviews for cargo transport
  demonstration missions to the Space Station. In December 2010, SpaceX was the first
  commercial entity to use an FAA-issued reentry permit for a test flight of its Dragon
  capsule as part of NASA’s COTS Project. Similarly, all future commercial resupply
  flights to the Space Station conducted by SpaceX or Orbital will require FAA licenses.

  What remains unclear is the extent of the Government oversight – either FAA, NASA, or
  a combination of both – that will be imposed for commercial crew missions to the Space
  Station. Industry officials have expressed concern that there may be two inconsistent
  Government environments: one encompassing FAA regulations for any non-NASA
  related flights and a different set of requirements imposed through NASA certification.

  To illustrate the difficulty this could pose to a commercial company, consider the
  following scenario: a company launching space tourists to low Earth orbit falls under
  FAA regulations and restrictions. However, if the company uses the same vehicle to
  carry NASA personnel to the Space Station it may be required to meet different and
  possibly inconsistent NASA standards. To avoid this scenario, timely coordination
  among NASA, the FAA, and commercial spaceflight companies is essential.


  33
       The exception would be if there was a high-risk incident, serious injury, or fatality, at which point the
       FAA could react accordingly and enact additional regulations.



REPORT NO. IG-11-022                                                                                               21
                                                                                                        RESULTS



     Some of these discussions are already taking place. For example, NASA has agreed that
     the goal is for FAA to license commercially developed vehicles used to transport NASA
     personnel. In addition, the agencies are co-locating personnel at NASA Headquarters,
     FAA field offices, and the Johnson and Kennedy Space Centers, and this co-location
     should assist in coordination. Most notably, at Kennedy, the FAA has co-located
     personnel with NASA’s Commercial Crew Planning Office until its Technical Center for
     Commercial Spaceflight is established. As expressed by the two agencies, the goal of
     these and other actions is to optimize Government oversight of commercial spaceflight
     companies through compatible requirements, standards, and processes.


Conclusion

     NASA is making progress toward its goal of stimulating a commercial space
     transportation industry that will enable the Agency to acquire safe, reliable, and cost-
     effective astronaut transportation to low Earth orbit. However, the challenges to
     successful completion of this process are numerous, interrelated, and ongoing. For
     example, establishing the appropriate level and mechanisms for Government insight and
     oversight of commercial partners’ operations will be influenced by the acquisition
     strategy NASA chooses. In addition, establishing cost-effective transportation and a
     price point relative to what transportation might cost on a NASA-developed or Soyuz
     vehicle is reliant upon a market that is currently under development. Furthermore, how
     successfully NASA and the FAA coordinate their respective roles in this process will
     impact the speed of development and the ultimate cost to NASA for commercial transport
     of its astronauts.

     Following retirement of the Space Shuttle Program in summer 2011, the United States
     will no longer have its own capability to access low Earth orbit and the International
     Space Station, and instead will depend upon Russia to provide crew transportation
     services. Currently, the only other option in development is the Government-owned and
     -operated Multi-Purpose Crew Vehicle and Space Launch System that the 2010
     Authorization Act set as a goal to be fully operational by December 31, 2016. 34
     However, NASA has indicated that this system is unlikely to be ready by that date.
     Consequently, NASA faces an imperative to nurture development of a U.S. commercial
     transportation service to reestablish the nation’s ability to access low Earth orbit and the
     Space Station as soon as possible.




     34
          The Authorization Act requires NASA to design the Multi-Purpose Crew Vehicle and the Space Launch
          System for beyond-earth-orbit exploration missions, and to be available as an alternate means of
          transporting crew and cargo to the International Space Station in the event that commercial crew and
          international partners are unable to do so.



22                                                                                      REPORT NO. IG-11-022
RESULTS



Management Action

  While we are not making specific recommendations for corrective action, we believe
  NASA must pay particular attention to the challenges highlighted in this report.
  Specifically, NASA should:

      •   clearly articulate to its commercial partners as soon as possible all requirements
          for commercially developed systems and the processes NASA will use for
          certifying such systems;

      •   maintain robust communication with the emerging commercial spaceflight
          industry to ensure that Agency contracting mechanisms include the appropriate
          balance between insight and oversight that will provide NASA with sufficient
          information to assess and certify commercial partners’ systems while providing
          companies the flexibility to be innovative;

      •   clearly articulate how it will mitigate potential conflicts of interest that may arise
          as a result of analysis that could provide an unfair competitive advantage to a
          NASA partner; and

      •   expand coordination with the FAA to avoid the potentially serious business
          impacts that would result if commercial companies were required to operate in an
          environment that included inconsistent sets of standards for NASA certification
          and FAA licensing of the same vehicle.

  In response to a draft of this report, the Associate Administrator for Exploration Systems
  Mission Directorate agreed that NASA should pay particular attention to the challenges
  highlighted in the report and stated that the Agency will be making progress in each of
  the areas as the Commercial Crew Program matures. The Associate Administrator also
  reiterated that the Agency’s acquisition strategy for the Commercial Crew Program has
  not been decided and is subject to further change as the procurement process matures.




REPORT NO. IG-11-022                                                                               23
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from June 2010 through May 2011 in accordance with generally
  accepted government auditing standards. Those standards require that we plan and
  perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
  for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Our overall audit objective was to review the development and implementation of
  NASA’s safety and human-rating standards for the commercial space industry. In
  particular, we focused on NASA’s development of the human-rating standards for
  commercial vehicles. We also evaluated how commercial space transportation providers
  intend to implement NASA’s safety and human-rating requirements. We met with
  representatives of a commercial space transportation company and officials from
  NASA’s Office of Safety and Mission Assurance Commercial Crew and Cargo Program
  Office. We identified and reviewed relevant Federal laws and regulations, NASA
  policies, procedures, plans, and guidance, and other criteria (see detailed list of items
  reviewed below).

  During much of our audit field work, NASA was in a “blackout period” with industry
  between October 25, 2010, when the Agency released the Announcement for Proposals
  for the second round of CCDev proposals until NASA announced final awards on April
  18, 2011. To avoid jeopardizing this procurement activity, the OIG did not communicate
  with the 42 companies that NASA had identified as Interested Parties during the blackout
  period.

  As part of the audit, we:

      •   attended commercial crew planning checkpoint meetings;

      •   acquired transcripts of congressional testimony by NASA’s Administrator and
          FAA’s Commercial Space official;

      •   interviewed key personnel within NASA’s Office of Safety and Mission
          Assurance;

      •   interviewed NASA’s Chief Engineer;

      •   coordinated with the NASA Advisory Council’s Commercial Space Committee;



REPORT NO. IG-11-022                                                                           25
                                                                                       APPENDIX A



        •   interviewed members of the Aerospace Safety Advisory Panel;

        •   interviewed personnel at SpaceX and toured their facility; and

        •   interviewed Air Force Chief Engineer for Wing Safety at Patrick Air Force Base
            in Florida;

     In addition, we reviewed information on the FAA website related to the commercial
     space industry.

     We identified and reviewed the following as applicable to our audit objectives:

     Federal Laws, Regulations, Policies, and Guidance

        •   Public Law (P.L), 85 - 568; 72 Stat. 426, “The National Aeronautics and Space
            Act of 1958” as Amended (Space Act), July 29, 1958

        •   P.L. 108 – 492, “Commercial Space Launch Amendments Act of 2004,”
            December 23, 2004

        •   P.L. 109 - 155, “NASA Authorization Act of 2005,” December 30, 2005

        •   P.L. 110 - 422, “NASA Authorization Act of 2008,” October 15, 2008

        •   P.L. 111 - 267, “NASA Authorization Act of 2010,” October 11, 2010

     NASA Policy and Procedures

        •   NASA Advisory Implementing Instruction 1050 – 1A, “Space Act Agreements
            Guide,” August 15, 2008

        •   NASA Advisory Implementing Instruction 1050 – 1B, “Space Act Agreements
            Guide,” June 10, 2011

        •   NPD 1050.1I, “Authority to Enter into Space Act Agreements“, December 23,
            2008

        •   NPD 8610.23C, “Launch Vehicle Technical Oversight Policy,” August 18, 2006

        •   NPD 8700.1E, “NASA Policy for Safety and Mission Success,” October 28, 2008

        •   NPD 8700.3B, “Safety and Mission Assurance (SMA) Policy for NASA
            Spacecraft, Instruments, and Launch Services,” October 28, 2008

        •   NPR 8705.5, “Probabilistic Risk Assessment (PRA) Procedures for NASA
            Programs and Projects,” July 12, 2004



26                                                                           REPORT NO. IG-11-022
APPENDIX A



      •   NPR 8705.2B “Human-Rating Requirements for Space Systems (w/change 1
          dated 12/7/2009),” May 6, 2008

      •   “Commercial Crew Transportation System Certification Requirements for NASA
          Low Earth Orbit Missions,” ESMD-CCTSCR-12.10, Revision Basic, December
          8, 2010

      •   CCT-1001, Commercial Human-Rating Plan (Draft), May 21, 2010

  We also reviewed the following documents and presentations:

      •   “Commercial Market Assessment for Crew and Cargo Systems Pursuant to
          Section 403 of the NASA Authorization Act of 2010 (P.L. 111-267),” April 27,
          2011

      •   The Vision for Space Exploration, NASA, February 2004

      •   FY 2012 NASA Proposed Budget,

      •   Congressional Testimonies on Human Spaceflight from the NASA Administrator,
          Chairman of the Review of US Spaceflight Plans Committee; the Chairman of the
          Aerospace Safety Advisory Panel; the Director, Office of Science and
          Technology Policy for the Executive Office of the President of the United States;
          and Former Astronauts to the United States Senate Committee on Commerce,
          Science, and Transportation and/or to the United States House of Representatives
          Committee on Science and Technology

      •   Commercial Human Rating Plan Overview

      •   Briefing to the Aerospace Safety Advisory Panel, “NPR 8705.2B, Human-Rating
          Requirements for Space Systems,” October 22, 2008

      •   Government Insight/Oversight for Commercial Crew Transportation

      •   Commercial Crew Insight/Oversight Model Recommendations

      •   Briefing to the Agency Program Management Council, “Safety Risk Tolerance
          for the Human Spaceflight,” August 27, 2010

      •   FAA 2010 Commercial Space Transportation Forecasts, May 2010

      •   Letter from Former Columbia Accident Investigation Board Members to US
          Senator, Regarding Crew Safety

      •   Space Act Agreements and articles discussing the agreements regarding the
          commercial crew space industry


REPORT NO. IG-11-022                                                                          27
                                                                                   APPENDIX A



        •   Various articles from various space industry websites, addressing commercial
            space industry issues

     Use of Computer-Processed Data. We did not rely upon computer-processed data to
     perform this review.


Review of Internal Controls

     We reviewed internal controls related to the development and implementation of NASA’s
     safety and human-rating standards for the commercial space industry. Generally, we
     concluded that the internal controls related to the commercial space industry were
     adequate.


Prior Coverage

     During the last 5 years, the NASA Office of Inspector General (OIG) and the
     Government Accountability Office (GAO) issued three reports of particular relevance to
     the subject of this report. Unrestricted reports can be accessed over the Internet at
     http://oig.nasa.gov/audits/reports/FY11 (NASA OIG) and http://www.gao.gov (GAO).

     NASA Office of Inspector General

     “NASA’s Management of Ares I Human-Rating Requirements” (IG-09-016, May 21,
     2009).”

     Government Accountability Office

     GAO Report GAO-09-618, “NASA: Commercial Partners are Making Progress, But Face
     Aggressive Schedules to Demonstrate Critical Space Station Cargo Transport
     Capabilities,” June 16, 2009.

     GAO Report GAO-10-286T, “Commercial Space Transportation: Development of the
     Commercial Space Launch Industry Presents Safety Oversight Challenges for FAA and
     Raises Issues Affecting Federal Roles,” December 2, 2009.




28                                                                       REPORT NO. IG-11-022
APPENDIX B




                                                            TECHNICAL AUTHORITY
                                                                 STANDARDS AND
                                                                  REQUIREMENTS


   Type 1 - Mandatory Technical Authority Standards and Requirements Documents
                   for Commercial Crew Transportation Systems
       Technical           Document Number                         Document Name
       Authority
   Health and Medical      NASA-Standard-3001   NASA Space Flight Human System Standard Volume 1:
           (1)                Volume 1          Crew Health
           (2)             NASA-Standard-3001   NASA Space Flight Human System Standard Volume 2:
                              Volume 2          Human Factors, Habitability, and Environmental Health
           (3)                                  Human Factors Design Standard
                                  FAA HFDS

           (4)                                  Human Engineering, Design Criteria for Military Systems,
                             MIL-STD-1472
                                                Equipment, and Facilities

           (5)             NASA-Standard-3000   Man-Systems Integration Standards.
                             Volume I – II

     Engineering (0)       None

   Safety and Mission      None
     Assurance (0)




      Type 2 - Technical Authority Standards and Requirements Documents for
         Commercial Crew Transportation Systems - Alternatives Allowed
                                with NASA Approval
       Technical            Document Number                         Document Name
       Authority
  Health and Medical (0)                           None
     Engineering (1)       NASA-STD-0005           NASA Configuration Management (CM) Standard
           (2)             NASA-STD-4003           Electrical Bonding For NASA Launch Vehicles,
                                                   Spacecraft, Payloads, And Flight Equipment
           (3)             NASA-STD-4005           Low Earth Orbit Spacecraft Charging Design
                                                   Standard
           (4)             NASA-STD-5005           Standard for the Design and Fabrication of Ground
                                                   Support Equipment
           (5)             NASA-STD-5017           Design and Development Requirements for
                                                   Mechanisms




REPORT NO. IG-11-022                                                                                   29
                                                                                     APPENDIX B



     Type 2 - Technical Authority Standards and Requirements Documents for
        Commercial Crew Transportation Systems - Alternatives Allowed
                               with NASA Approval
     Technical       Document Number                           Document Name
     Authority
        (6)                                   Fracture Control Requirements For Spaceflight
                   NASA-STD-5019
                                              Hardware
        (7)                                   Standard Manned Spacecraft Requirements for
                   NASA-STD-6016
                                              Materials and Processes
        (8)                                   Security of Information Technology
                   NPR 2810.1
        (9)                                   NASA Space Flight Program and Project
                   NPR 7120.5
                                              Management Requirements
       (10)                                   NASA Systems Engineering Processes and
                   NPR 7123.1
                                              Requirements
       (11)                                   NASA Software Engineering Requirements
                   NPR 7150.2
       (12)                                   Structural Design Requirements and Factors of Safety
                   JSC 65828
                                              for Spaceflight Hardware
       (13)                                   Loads and Structural Dynamics Requirements for
                   JSC 65829
                                              Spaceflight Hardware

       (14)                                   Human Rated Spacecraft Pyrotechnic Specification
                   JSC 62809
       (15)                                   Thermal Protection System Design Standard for
                   JSC 65827
                                              Spacecraft
       (16)                                   Crewed Space Vehicle Battery Safety Requirements
                   JSC 20793
       (17)                                   Strength Design and Verification Criteria for Glass,
                   JSC 62550                  Ceramics, and Windows in Human Spaceflight
                                              Applications
       (18)                                   Interim Requirements and Standard Practices for
                   JSC 65830                  Mechanical Joints with Threaded Fasteners in
                                              Spaceflight Hardware
       (19)                                   Deployable Aerodynamic Decelerator Requirements
                   JSC 65985
                                              for Human Spaceflight

       (20)                                   Requirements for the Control of Electromagnetic
                   MIL-STD-461                Interference Characteristics of Subsystems and
                                              Equipment
       (21)                                   Electromagnetic Environmental Effects Requirements
                   MIL-STD-464
                                              for Systems
       (22)                                   Design, Manufacturing and Quality Standards for
                   MIL-STD-981                Custom Electromagnetic Devices for Space
                                              Applications
       (23)        MIL-STD-1540E/             Test Requirements for Launch, Upper-Stage, and
                   Aerospace Report No.       Space Vehicles
                   TR-2004 (8583) -1 Rev. A




30                                                                      REPORT NO. IG-11-022
APPENDIX B



      Type 2 - Technical Authority Standards and Requirements Documents for
         Commercial Crew Transportation Systems - Alternatives Allowed
                                with NASA Approval
       Technical          Document Number                       Document Name
       Authority
         (24)                                  Qualification and Quality Requirements for Space
                        AIAA S-111-2005
                                               Solar Cells
         (25)                                  Qualification and Quality Requirements for Space
                        AIAA-S-112-2005
                                               Solar Panels
         (26)                                  ESD Association Standard for the Development of an
                        ANSI/ESD S20.20-1999   Electrostatic Discharge Control Program for
                                               Protection of Electrical and Electronic Parts,
                                               Assemblies
         (27)           IPC-2221               Generic Standard on Printed Board Design
         (28)                                  Sectional Design Standard for Rigid Organic Printed
                        IPC-2222
                                               Boards
         (29)                                  Generic Performance Specification for Rigid Printed
                        IPC-6011 1996
                                               Boards
         (30)           IPC-6012               Qualification and Performance Specification for Rigid
                                               Printed Boards
         (31)           IPC-CM-770E            Component Mounting Guidelines for Printed Boards
         (32)           SAE ARP 5412A          Aircraft Lightning Environment and Related Test
                                               Waveforms
         (33)           SAE ARP 5413           Certification of Aircraft Electrical/Electronic Systems
                                               for the Indirect Effects of Lightning
         (34)           SAE ARP 5414A          Aircraft Lightning Zoning
         (35)           SAE ARP 5577           Aircraft Lightning Direct Effects Certification
   Safety and Mission                          NASA Policy for Safety and Mission Success
                        NPD 8700.1
     Assurance (1)
          (2)           NPD 8710.5             Policy for Pressure Vessels and Pressurized Systems
          (3)           NPD 8730.1             Metrology and Calibration
          (4)           NPD 8730.2             NASA Parts Policy
          (5)           NPR 8000.4             Risk Management Procedures and Guidelines
          (6)           NPR 8621.1             NASA Procedural Requirements for Mishap and
                                               Close Call Reporting, Investigating, and
                                               Recordkeeping
          (7)           NPR 8705.5             Probabilistic Risk Assessment (PRA) Procedures for
                                               NASA Programs and Projects
          (8)           NPR 8705.6             Safety and Mission Assurance Audits, Reviews, and
                                               Assessments
          (9)           NPR 8715.3             NASA General Safety Program Requirements
         (10)           NPR 8715.5             Range Safety Program
         (11)           NPR 8715.6             NASA Procedural Requirements for Limiting Orbital
                                               Debris



REPORT NO. IG-11-022                                                                               31
                                                                                  APPENDIX B



     Type 2 - Technical Authority Standards and Requirements Documents for
        Commercial Crew Transportation Systems - Alternatives Allowed
                               with NASA Approval
     Technical       Document Number                        Document Name
     Authority
       (12)        NPR 8735.1              Procedures for Exchanging Parts, Materials, and
                                           Safety Problem Data Utilizing the Government-
                                           Industry Data Exchange Program (GIDEP) and NASA
                                           Advisories
       (13)        NPR 8735.2              Management of Government Quality Assurance
                                           Functions for NASA Contracts
       (14)        NASA-STD 8709.20        Management of Safety and Mission Assurance
                                           Technical Authority (SMA TA) Requirements
       (15)        NASA-STD 8719.12        Safety Standard for Explosives, Propellants, and
                                           Pyrotechnics
       (16)        NASA-STD 8719.13        NASA Software Safety Standard
       (17)        NASA-STD 8719.14        Process for Limiting Orbital Debris
       (18)        NASA-STD 8719.17        NASA Requirements for Ground-Based Pressure
                                           Vessels and Pressurized Systems (PV/S)
       (19)        NASA-STD 8739.1         Workmanship Standard for Staking and Conformal
                                           Coating of Printed Wiring Boards and Electronic
                                           Assemblies
       (20)        NASA-STD 8739.4         Crimping, Interconnecting Cables, Harnesses, and
                                           Wiring
       (21)        NASA-STD 8739.5         Fiber Optic Terminations, Cable Assemblies, and
                                           Installation
       (22)        NASA-STD 8739.8         Software Assurance Standard
       (23)        ANSI Z117.1             Safety Requirements for Confined Spaces
       (24)        ANSI Z136.2             Safe Use of Optical Fiber Communication Systems
                                           Utilizing Laser Diode and LED Sources
       (25)        ANSI/AIAA S-080         Space Systems-Metallic Pressure Vessels, Pressurized
                                           Structures, and Pressure Components
       (26)        ANSI/AIAA S-081         Space Systems – Composite Overwrapped Pressure
                                           Vessels (COPV)
       (27)        ANSI/ESD S20.20         Protection of Electrical and Electronic Parts,
                                           Assemblies and Equipment (Excluding Electrically
                                           Initiated Explosive Devices)
       (28)        ANSI/NCSL Z540.3-2006   Requirements for the Calibration of Measuring and
                                           Test Equipment
       (29)        ASTM Manual 36          Safe Use of Oxygen and Oxygen Systems:
                                           Guidelines for Oxygen System Design, Materials
                                           Selection, Operations, Storage, and Transportation
       (30)        GEIA-STD-005-1          Performance Standard for Aerospace and High
                                           Performance Electronic Systems Containing Lead-
                                           Free Solder
       (31)        IEEE 730-2002           IEEE Standard for Software Quality Assurance Plans


32                                                                   REPORT NO. IG-11-022
APPENDIX B



       Type 2 - Technical Authority Standards and Requirements Documents for
          Commercial Crew Transportation Systems - Alternatives Allowed
                                 with NASA Approval
       Technical            Document Number                          Document Name
       Authority
          (32)            IPC J-STD-001D            J-STD 001D, Requirements for Soldered Electrical
                                                    and Electronic Assemblies
          (33)            IPC J-STD-001DS           Space Applications Electronic Hardware Addendum
                          Amendment 1               to J-STD 001D, Requirements for Soldered Electrical
                                                    and Electronic Assemblies
          (34)            SAE/AS5553                Counterfeit Electronic Parts; Avoidance, Detection,
                                                    Mitigation, and Disposition
          (35)            SAE/AS9100                Quality Management Systems – Aerospace-
                                                    Requirements




       Type 3 - Technical Authority Standards and Requirements Documents for
               Commercial Crew Transportation Systems - Best Practices
       Technical          Document Number                            Document Name
       Authority
 Health and Medical (1)   NASA/SP-2010-3407           Human Integration Design Handbook
    Engineering(1)                                    Goddard Space Flight Center Rules for the Design,
                          GSFC-STD-1000               Development, Verification, and Operation of Flight
                                                      Systems
          (2)             JPR 8080.5                  JSC Design and Procedural Standards
          (3)                                         Facility, System, and Equipment General Design
                          KSC-DE-512
                                                      Requirements
          (4)                                         KSC Design Engineering Handbook for Design and
                          KSC-NE-9439
                                                      Development of Ground Systems
          (5)                                         Design, Development Test and Evaluation
                          NESC-RP-06-108/05-173-E     (DDT&E) Considerations for Safe and Reliable
                                                      Human Rated Spacecraft Systems
          (6)             RTCA DO-160E                Environmental Conditions and Test Procedures for
                                                      Airborne Equipment
          (7)             SAE ARP 5416                Aircraft Lightning Test Methods
   Safety and Mission                                 SMA Policy for NASA Spacecraft, Instruments, and
                          NPD 8700.3
     Assurance (1)                                    Launch Services
          (2)             NPD 8720.1                  NASA Reliability and Maintainability (R&M)
                                                      Program Policy
          (3)             NPR 8715.3                  NASA General Safety Program Requirements
          (4)                                         General Requirements for Competence of Testing
                          ANSI/ISO/IEC 17025-2000
                                                      and Calibration Laboratories




REPORT NO. IG-11-022                                                                                      33
                                                                                           APPENDIX B



        Type 3 - Technical Authority Standards and Requirements Documents for
                Commercial Crew Transportation Systems - Best Practices
         Technical         Document Number                          Document Name
         Authority
            (5)            ANSI/NCSL Z540.1-1994      General Requirements for Calibration Laboratories
                           (R2002)                    and Measuring and Test Equipment
            (6)            AS 9003                    Inspection and Test Quality System
            (7)            NASA-STD 2202-93           Software Formal Inspections Standard
            (8)            GIDEP S0300-BT-PRO-010     GIDEP Operations Manual
            (9)                                       Government-Industry Data Exchange (GIDEP)
                           GIDEP S0300-BU-GYD-010
                                                      Requirements Guide
            (10)                                      Goddard Space Flight Center Rules for the Design,
                           GSFC-STD-1000              Development, Verification, and Operation of Flight
                                                      Systems


     Acronyms:
     AIAA  American Institute of Aeronautics and    IEC     International Electrotechnical
           Astronautics                                     Commission
     ANSI American National Standards Institute     IPC     Association Connecting Electronics
     ARP   Aerospace Recommended Practice                   Industries
     AS    Aerospace Standards                      ISO     International Organization for
     ASTM American Society for Testing and                  Standardization
           Materials                                JPR     Johnson Procedural Requirements
     CM    Component Mounting                       JSC     Johnson Space Center
     ESD   Electrostatic Discharge                  KSC     Kennedy Space Center
     FAA   Federal Aviation Administration          MIL     Military
     GEIA Government Electronics and Information    NCSL    National Conference of Standards
           Technology Association                           Laboratories
     GIDEP Government Industry Data Exchange        NESC    NASA Engineering and Safety Center
           Program                                  NPD     NASA Policy Directive
     GSFC Goddard Space Flight Center               NPR     NASA Procedural Requirements
     HFDS Human Factors Design Standard             RTCA    Radio Technical Committee for
     IEEE Institute of Electrical and Electronics           Aeronautics
           Engineers                                SAE     SAE International
                                                    STD     Standard




34                                                                           REPORT NO. IG-11-022
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-11-022                         35
              APPENDIX C




36   REPORT NO. IG-11-022
APPENDIX D




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Chief Engineer
  Chief Safety and Mission Assurance Officer
  General Counsel
  Assistant Administrator for Procurement
  Associate Administrator for Exploration Systems Mission Directorate
  Associate Administrator for Space Operations Mission Directorate
  Acting Director, Commercial Spaceflight Development
  Manager, Commercial Crew Program, Kennedy Space Center
  NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, NASA Financial Management, Office of Financial Management and
        Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Organization, Efficiency, and Financial Management
  House Committee on Science, Space, and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics


REPORT NO. IG-11-022                                                                 37
Major Contributors to the Report:
   Rebecca Sharek, Director, Space Operations Directorate
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Loretta Atkinson, Project Manager
   Frank Martin, Aerospace Technologist
   Larry Neu, Aerospace Technologist
   Eugene Bauer, Auditor




REPORT NO. IG-11-022                                                         39
                                                                                    JUNE 30, 2011
                                                                   REPORT No. IG-11-022




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY10/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
